HHS/OIG - Audit -"Review of Medicare Part A Administrative Costs Fiscal Years 1996 - 1997 Independence Blue Cross Philadelphia, Pennsylvania, (A-03-99-00009)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A Administrative Costs Fiscal Years 1996 - 1997 Independence Blue Cross Philadelphia, Pennsylvania," (A-03-99-00009)
July 26, 2001
Complete
Text of Report is available in PDF format (943 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report presents the results of an Office of Inspector General (OIG) review of administrative costs claimed
by Independence Blue Cross (IBC) for the administration of the Medicare Part A program for Fiscal Years (FYs) 1996 and
1997 (October 1, 1995 - September 30, 1997).  During this period, IBC booked and claimed a total of $24,610,539 in
Medicare administrative costs.  We found that IBC claimed $4,644,602 in questioned costs including $4,146,905 in excess
costs claimed over approved budgets and $497,697 in unfunded transition costs.  We did not make any procedural recommendations
since IBC opted to discontinue the Medicare Part A program.   We recommended that IBC coordinate with CMS to reduce
the costs claimed by $4,644,602.